NO.

IN THE
SUPREME COURT OF THE UNITED STATES
GEORGE A CHRISTIAN JR - PETITIONER
vs.
THE STATE OF OKLAHOMA - RESPONDENT (S)

PROOF OF SERVICE
I, George A. Christian Jr., do swear or declare that on this date,
, 20 2/. as required by Supreme Court Rule 291 have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
The State of Oklahoma
Jennifer M. Hinsperger Assistant District Attorney, 320 Robert S. Kerr Ave. Ste 505, Oklahoma
City, OK 73102.
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on <J

, 2QZ(
V

(Signsfture)

21

a

